U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



      CACFP AUDIT FUNDS
  CALIFORNIA DEPARTMENT OF
         EDUCATION




              Report No.
              27016-1-SF
              April 2003
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL
                                         Western Region - Audit
                                      75 Hawthorne Street, Suite 200
                                      San Francisco, CA 94105-3920
                                  TEL: 415-744-2851 FAX: 415-744-2871



DATE:          April 16, 2003

REPLY TO
ATTN OF:       27016-1-SF

SUBJECT:       CACFP Audit Funds – California Department of Education

TO:            Allen Ng
               Regional Administrator
               Western Region
               Food and Nutrition Service

ATTN:          Kathleen Burks
               Director of Financial Management


This report presents the results of our audit of the California Department of Education’s
(CDE) administration of Child and Adult Care Food Program (CACFP) audit funds. The
cost of this activity is funded by the Food and Nutrition Service (FNS). We reviewed
CDE (1) costs claimed for this activity during calendar year 2001, (2) controls for
completing required reviews of CACFP audits, and (3) implementation of
recommendations from two prior OIG audit reports.               Except for some minor
discrepancies related to personnel costs, we found no problems in the three areas that
we reviewed.

BACKGROUND

The CACFP is designed to ensure that children and adults in day care facilities receive
nutritious meals. The CACFP is administered at the Federal level by FNS and in
California by CDE through public, nonprofit, and for-profit sponsors that act as liaisons
to participating day care facilities.

CACFP sponsors that receive $300,000 or more in program funds are required to
contract with independent Certified Public Accountants (CPA’s) to have an audit
conducted of their operations.1 FNS funds States2 for the purpose of reviewing these
audit reports (commonly referred to as A-133 audit reports) as well as conducting their
own audits of participating sponsors. For this service, CDE receives audit funds

1
  Office of Management and Budget Circular A-133, Audits of States, Local Governments, and Non-Profit
  Organizations, dated June 24, 1997.
2
  Public Law 106-224, dated January 6, 1999.
Allen Ng                                                                                                             2


equivalent to 1½ percent of program funds. The funds may be used for personnel costs
(i.e., salaries, benefits, associated indirect costs3), payments to CPA’s, and other
miscellaneous costs.

OBJECTIVES

The audit objectives were to review CDE (1) costs claimed for administration of CACFP
audit funds during calendar year 2001, (2) controls for completing required reviews of
CACFP audits, and (3) implementation of recommendations from two prior OIG audit
reports.4

SCOPE

In one of our prior audits,5 we reported that CDE’s personnel claims could not be
verified and recommended that it establish a system to support its claims. Since CDE
was unable to implement a system until January 2001, we selected calendar year 2001
to test claims of $1,183,242. We reviewed 100 percent of the four largest cost
categories (personnel, facilities operations, payments to CPA’s for conducting A-133
audits, and communications), which totaled $1,040,956,6 about 88 percent of the total
claim.

To determine if CDE received all required sponsor A-133 audit reports, we reviewed
records for fiscal years (FY’s) 1999 to 2001. These records contained the names of 269
sponsors in FY 1999, 257 sponsors in FY 2000, and 240 sponsors in FY 2001 that were
required to submit these reports.

Audit fieldwork was performed in California from October 2001 to October 2002 at the
FNS Western Regional Office in San Francisco and at CDE in Sacramento.

This audit was performed in accordance with generally accepted government auditing
standards.

METHODOLOGY

To accomplish our objectives, we performed the following procedures:

      •    We reviewed applicable public laws, regulations, General Accounting Office
           reports, and Office of Management and Budget (OMB) Circulars to familiarize

3
  Indirect costs include charges for General Management and State-Wide Cost Allocation Plan (SWCAP). These
  charges are determined based on percentages applied to outlays and encumbrances for the period.
4
  Audit Report 27601-8-SF, CACFP – Administration of 2-Percent Funds, dated March 1999, and Audit Report
  27601-9-SF, CACFP – Quality of Audit Work, dated August 1999.
5
  Audit Report 27601-8-SF, CACFP – Administration of 2-Percent Funds, dated March 1999.
6
    This amount includes $861,740 for direct costs of personnel, communications, facilities operations, and payments to
    CPA’s and $179,216 for applicable indirect costs.
Allen Ng                                                                                           3


           ourselves with the requirements of the program.

      •    We contacted officials at the California Bureau of State Audits to determine its role
           in reviewing CDE operations and if the agency had concerns about CDE’s
           administration of CACFP sponsor audits.

      •    At the FNS Western Regional Office, we obtained information about Management
           Evaluations and other reviews of the CACFP to determine if FNS was aware of
           past problems with the program. We interviewed FNS officials and obtained
           applicable program correspondence between FNS and CDE to determine how
           findings in the previous OIG audits were resolved. We obtained Financial Status
           Reports (SF 269) submitted by CDE to validate charges to the CACFP during our
           scope period.

      •    At CDE, we interviewed audit, program, and accounting officials to verify the status
           of prior audit recommendations. We reviewed CDE documentation of sponsor
           payments to determine if claims of CPA expenses were properly reimbursed.
           We compared employee timesheets to corresponding activity reports to
           determine if personnel costs charged to audit funds were allowable.

      •    To determine if CDE obtained all sponsor A-133 audit reports, we analyzed two
           CDE databases—one that identified the audit reports received and a second that
           identified which sponsors received CACFP funding.

FINDING

During calendar year 2001, some CDE employees incorrectly charged time to CACFP
audit funds on their monthly timesheets when they worked on other unrelated activities.
This occurred because (1) employees did not exercise due care in completing their
timesheets, and (2) written procedures for charging time were incomplete. Further,
audit supervisors missed the incorrect charges when they reviewed the timesheets. As
a result, CDE claimed $20,423 in unallowable costs and $6,663 in unsupported costs.
This resulted in an overreimbursement to CDE totaling $27,086 (see exhibits A and B).

Regulations7 state CACFP audit funds are to be used “for the expense of conducting
audits at the State and institution levels.” OMB Circular A-878 provides “that Federal
awards bear their fair share of cost….” The Circular also requires that employee
compensation for time charged to Federal awards must be “identified specifically to the
performance of those awards.”

CDE audit staff submits monthly timesheets to record time worked on various
assignments. This includes time charged to general funding sources such as CACFP


7
    Title 7 CFR 226.4(h) and 226.8(a), Child and Adult Care Food Program, dated January 1, 1998.
8
    Cost Principles for State, Local, and Indian Tribal Governments, dated August 29, 1997.
Allen Ng                                                                                                          4


audit funds, State Administrative Expense funds,9 and State funds. OIG audit report
27601-8-SF, dated March 1999, found that CDE had not provided the detail needed to
confirm charges to the CACFP. The audit report recommended that CDE maintain
adequate support for time charged to CACFP audit funds with appropriate time
distribution records. In January 2001, CDE complied with this recommendation by
requiring audit staff to submit supporting documentation (monthly activity reports) for
specific activities performed. The monthly activity reports disclose the names of
sponsors reviewed and other activities performed.

To determine if CDE audit staff correctly charged its time to CACFP audit funds, we
compared time charged on the monthly timesheets with the entries recorded on the
monthly activity reports. For calendar year 2001, we found that:

      •   CDE Claimed Unallowable Personnel Costs. Eleven auditors charged 326.5
          hours for 49 desk reviews and 1 audit of non-CACFP sponsors. In addition, 17
          auditors and staff charged 195.2 training hours that should have been charged to
          other programs. These hours resulted in unallowable charges of $16,906 plus
          $3,517 for indirect costs, which totaled $20,423.

      •   CDE Claimed Unsupported Personnel Costs. Eight auditors charged 111.5
          hours to CACFP audit funds that were recorded as miscellaneous,
          administrative, and general on their monthly activity reports. The auditors could
          not explain what they did or how this time benefited the CACFP. These hours
          resulted in unsupported charges of $5,522 plus $1,141 for indirect costs, which
          totaled $6,663.

CDE supervisors informed us they discussed procedures for reporting time for desk
reviews and audits with their staff. One supervisor also provided staff with a memo
dated January 8, 2001, that discussed procedures for charging time to CACFP audit
funds. Despite this direction, CDE auditors and staff did not exercise due care in
completing their timesheets.

In addition, written procedures for charging training time were incomplete. The
procedures provided to audit staff did not include instructions for allocating training that
benefited more than one activity. The audit supervisors also missed the incorrect
charges when they reviewed the timesheets.

FNS should recover $20,423 from CDE for unallowable personnel costs claimed during
calendar year 2001. In addition, FNS should recover $6,663 for unsupported personnel
costs unless CDE can provide evidence that these costs were related to CACFP audit
efforts. To minimize future incorrect charges, FNS should require CDE to revise its
written procedures to include instructions for allocating training time among all cost
9
    State Administrative Expense funds are Federal funds paid to State agencies for administrative expenses incurred
    in supervising and providing technical assistance in connection with activities under the National School Lunch
    Program, the Special Milk Program, the School Breakfast Program, the Child and Adult Care Food Program, and
    the Food Distribution Program.
Allen Ng                                                                             5


areas that receive benefit, and improve its method of validating time charged to CACFP
audit funds.

Recommendation No. 1:

Recover $20,423 from CDE for unallowable personnel and indirect costs claimed during
calendar year 2001.

FNS Response:

FNS concurred with the finding and recommendation and will instruct CDE to return
$20,423 for unallowable personnel and indirect costs claimed during calendar year
2001.

OIG Position:

We agree with FNS’ proposed corrective action. To achieve management decision, the
agency needs to provide us with documentation that the State has been billed for the
appropriate amount and support that the amount has been entered as a receivable on
FNS’ accounting records.

Recommendation No. 2:

Recover $6,663 from CDE for unsupported personnel and indirect costs claimed during
calendar year 2001, unless CDE can provide evidence that these costs are related to
CACFP audit funds.

FNS Response:

FNS concurred with the finding and recommendation and will instruct CDE to return
$6,663 for unsupported personnel and indirect costs unless CDE can provide evidence
that these costs are related to CACFP audit funds.

OIG Position:

We agree with FNS’ proposed corrective action. To achieve management decision, the
agency needs to provide us with evidence that these costs are related to CACFP audit
funds. If this evidence is not available, the agency must provide us with documentation
that the State has been billed for the appropriate amount and support that the amount
has been entered as a receivable on FNS’ accounting records.

Recommendation No. 3:

Require CDE to revise its written procedures to include instructions for allocating
training time among all cost areas that receive benefit.
Allen Ng                                                                               6


FNS Response:

FNS concurred with the finding and recommendation and will instruct CDE to revise its
procedures to include instructions for allocating training time among all cost areas that
receive benefit.

OIG Position:

We agree with FNS’ proposed corrective action. To achieve management decision, the
agency needs to provide us with documentation of its corrective action plan and a
timeframe for determining when corrective action will be taken.

Recommendation No. 4:

Require CDE to improve its method of validating time charged to CACFP audit funds.

FNS Response:

FNS concurred with the finding and recommendation and will instruct CDE to improve
its methods of validating time charged to CACFP audit funds.

OIG Position:

We agree with FNS’ proposed corrective action. To achieve management decision, the
agency needs to provide us with a corrective action plan and a timeframe for
determining when corrective action will be taken.

CONCLUSIONS AND REQUIRED AGENCY ACTIONS:

Your March 21, 2003, response to the draft report has been included as exhibit C of this
report. We agree with your proposed corrective actions but are unable to reach
management decision for Recommendations Nos. 1, 2, 3, or 4 for the reasons cited
above.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of those recommendations for which management decision has not
been reached. Please note that the regulation requires a management decision to be
reached on all recommendations within a maximum of 6 months from report issuance
and final action to be taken within 1 year of the management decision.
Allen Ng                                                                       7


We appreciate the assistance and cooperation of your staff during our audit.


/s/

SAM W. CURRIE
Regional Inspector General
  for Audit
EXHIBIT A - SUMMARY OF MONETARY RESULTS

RECOMMENDATION
    NUMBER               DESCRIPTION              AMOUNT             CATEGORY

      1          CDE Charged Unallowable
                 Personnel Costs to CACFP Audit             Questioned Costs – Recovery
                 Funds                            $20,423   Recommended

      2          CDE Charged Unsupported
                 Personnel Costs to CACFP Audit             Unsupported Costs – Recovery
                 Funds                            $ 6,663   Recommended

TOTAL MONETARY
   RESULTS                                        $27,086




                                                                          PAGE 8
EXHIBIT B - UNALLOWABLE AND UNSUPPORTED PERSONNEL
COSTS CHARGED TO CACFP AUDIT FUNDS

                                                         1                            2
        MONTH / YEAR            UNALLOWABLE COSTS            UNSUPPORTED COSTS                    TOTAL
             01/01                       $ 2,482                      $ 2,809                    $ 5,291
             02/01                       $   667                      $   981                    $ 1,648
             03/01                       $   269                      $    54                    $    323
             04/01                       $   515                      $   459                    $    974
             05/01                       $ 1,190                      $   134                    $ 1,324
             06/01                       $ 3,045                      $   301                    $ 3,346
             07/01                       $ 3,195                      $   403                    $ 3,598
             08/01                       $   318                      $     0                    $    318
             09/01                       $   105                      $   289                    $    394
             10/01                       $ 1,185                      $     0                    $ 1,185
             11/01                       $ 1,140                      $    35                    $ 1,175
             12/01                       $ 2,795                      $    57                    $ 2,852
          SUBTOTAL                       $ 16,906                     $ 5,522                    $ 22,428
                        3
      INDIRECT COSTS                     $ 3,517                      $ 1,141                    $ 4,658
            TOTAL                        $20,423                      $ 6,663                    $ 27,086




1
  CDE claimed personnel costs for 49 desk reviews, 1 audit, and training that should have been charged to other
  programs.
2
  CDE charged time to CACFP audit funds that could not be supported.
3
    Indirect Cost Rates were 20.6 percent for the period January – June 2001 and 21.0 percent for the period July –
    December 2001.




                                                                                                 PAGE 9
                                                   Page 1 of 2
EXHIBIT C - FNS' WRITTEN RESPONSE TO THE DRAFT REPORT




                                               PAGE 10
                                                   Page 2 of 2
EXHIBIT C - FNS' WRITTEN RESPONSE TO THE DRAFT REPORT




                                               PAGE 11
Informational copies of this report have been distributed to:

Agency Liaison Officer                                          (3)
General Accounting Office                                       (2)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division                 (1)
